           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     COLLECTION, USE, AND DISCLOSURE
       OF SOCIAL SECURITY NUMBERS
IN STATES’ NEWBORN SCREENING PROGRAMS


     November 2011   A-08-11-11181




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:   November 28, 2011                                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Collection,
                  Use, and Disclosure of Social Security Numbers in States’ Newborn
        Screening Programs (A-08-11-11181)


        OBJECTIVE
        Our objective was to evaluate the collection, use, and disclosure of Social Security
        numbers (SSN) in States’ newborn screening programs.

        BACKGROUND
        Each year, State Departments of Health (DoH) screen millions of newborns for
        disorders that require early detection and treatment to prevent serious illness or death.
        To assist in this process, many hospitals and birthing facilities collect mother and infant
        demographic information, including the mother’s SSN, on the State’s newborn
        screening form. 1 Although no single Federal law regulates overall use and disclosure of
        SSNs, the Social Security Act, 2 and the Privacy Act of 1974 3 contain provisions that
        govern disclosure and use of SSNs. Additionally, the Administrative Simplification
        provisions in the Health Insurance Portability and Accountability Act of 1996 (HIPAA)
        address the privacy and security of all “. . . individually identifiable health information,
        including SSNs.” 4 See Appendix B for more information on the specific provisions of
        these laws.



        1
          Hospitals and birthing facilities may collect other data, such as the name of the hospital, physician, and
        insurance, on the newborn screening form. The hospital or birthing facility generally sends this form,
        along with the infant’s blood sample, to a State laboratory for processing.
        2
            Social Security Act § 205(c)(2)(C)(viii), 42 U.S.C. § 405(c)(2)(C)(viii).
        3
         Pub. L. No. 93-579, § 7, 88 Stat. 1896, 1909 (1974), 5 U.S.C. § 552a, note (Disclosure of Social
        Security Number).
        4
         Pub. L. No. 104-191, §§ 261–264, 110 Stat. 1936, 2021-2033 (1996), Social Security Act § 1171-1180.
        42 U.S.C. §§ 1320d-1320d-9, 45 C.F.R. Parts 160 and 164.
Page 2 - The Commissioner


To accomplish our objective, we reviewed relevant laws from all 50 States to determine
whether SSN collection is legally mandated for their respective newborn screening
programs. We contacted the States’ DoHs to determine their use of SSNs or alternate
identifiers in their newborn screening programs. We visited six DoHs and one hospital
in each of these six States. For each DoH and hospital visited, we interviewed
personnel and reviewed policies and procedures for the collection, use, and disclosure
of SSNs in the newborn screening program. See Appendix C for additional details
regarding the scope and methodology of our review.

RESULTS OF REVIEW
Our review of State DoHs’ newborn screening programs disclosed that many routinely
collected and used mothers’ SSNs as identifiers, despite the continuing rise in identity
theft. We believe such practices increase the risk of SSN misuse and unnecessarily
subject mothers to the possibility of identity theft. Based on our previous audit and
investigative work, we believe unnecessary collection and use of SSNs increase the
potential for dishonest individuals to obtain these numbers and misuse them.

Our review also disclosed that privacy issues or identity theft concerns have led several
DoHs to eliminate SSN collection and use in their newborn screening programs. One
DoH eliminated SSN collection because of State law. 5 Low compliance rates in
providing SSNs, driven by concerns over privacy, led another DoH to eliminate the
collection of mothers’ SSNs in its newborn screening program. We applaud those State
DoHs that have taken steps to eliminate SSN collection and use in their newborn
screening programs.

While pending Federal legislation, if enacted, would change how such entities as DoHs
collect and use SSNs, 6 we believe it is necessary to highlight the continued
over-reliance on the SSN and the inherent risks associated with such use. We
recognize that the Social Security Administration (SSA) has conducted outreach efforts
to educate such entities as State and local governments. We also believe SSA is
well-positioned to encourage DoHs that use SSNs in their newborn screening programs
to eliminate this practice and adopt alternate identifiers in their record systems.




5
    NY Pub. Off. Law § 96-a (McKinney 2010).
6
  H.R. 220, Identity Theft Protection Act of 2011, introduced January 7, 2011. This bill includes an
amendment to the Privacy Act of 1974 that prohibits any Federal, State, or local government agency or
instrumentality from requesting an individual to disclose his/her SSN on either a mandatory or voluntary
basis.
Page 3 - The Commissioner


SSN COLLECTION AND USE IN STATE NEWBORN SCREENING PROGRAMS

Of the 50 DoHs contacted, 17 (34 percent) collected and used mothers’ SSNs in their
newborn screening programs. 7 These DoHs stated that they collected and used
mothers’ SSNs in their program for a variety of purposes. For example, they generally
used SSNs to associate infants with mothers and track infants’ initial and subsequent
screenings in the State’s record repository. DoHs also collected mothers’ SSNs for
billing purposes, because insurance companies and healthcare facilities use SSNs as
primary or secondary identifiers. Yet, one hospital we visited collected mothers’ SSNs
only because the State DoH newborn screening form had a space asking for the SSN.

According to these DoHs, they did not use the SSN as the primary identifier in their
programs. Instead, these DoHs generally used the SSN in conjunction with other data
elements, such as the names and dates of birth for mother and baby. Other identifiers
used by DoHs included hospital name, patient number, or mother’s address and
telephone number. While these DoHs stated the SSN was not the primary identifier in
their programs, several used SSNs as an identifier when healthcare providers accessed
infants’ screening results by telephone.

Some DoH officials told us they continued collecting SSNs because the number was
important for identification. One DoH official stated that notification is crucial when
screening results indicate an infant has a life-threatening disease. These DoHs also
told us that, if the mother did not provide her SSN, they processed the infant’s screening
without the number. One official stated that the SSN is the best identifier because it is
unique to an individual and will not change like other identifiers. Yet, we believe other
unique identifiers can be used that will not put mothers at risk of identity theft.

POTENTIAL RISKS ASSOCIATED WITH SSN COLLECTION AND USE

Although none of the State DoHs or hospitals we contacted was aware of any SSN
misuse in the newborn screening programs, one hospital had inadvertently disclosed
mothers’ SSNs. The official with whom we spoke told us that the hospital had mailed
completed newborn screening forms containing SSNs to the wrong address. The DoH
advised us that, because of HIPAA and State data breach notification laws, its newborn
screening program notified the affected mothers. 8



7
  These State DoHs were in Alabama, California, Florida, Illinois, Kentucky, Louisiana, Maryland,
Michigan, New Jersey, North Carolina, Oklahoma, Pennsylvania, South Carolina, Tennessee, Texas,
Virginia, and West Virginia. Of these 17 State DoHs, Michigan and Pennsylvania officials told us that
they only collect a partial SSN. In addition, California DoH stated they were in the process of revising
their practice and plan to begin collecting only a partial SSN. Only South Carolina DoH stated that it
collects mothers’ SSNs in its newborn screening program because it is lawfully mandated. S.C. Code
Regs. 61-80.
8
 Pub. L. No. 104-191, Title II, § 262(a), 110 Stat. 1936, 2024, (1996), Social Security Act § 1173,
42 U.S.C. § 1320d-2; Cal. Civil Code § 1798.29 (2011).
Page 4 - The Commissioner


Our prior audit work has highlighted risks associated with the collection and use of
SSNs. In 2007, we reported that State and local governments’ collection and use of
SSNs contributed to instances in which some public documents containing SSNs were
posted on the Internet. 9 In 2006, we also reported on hospitals’ collection and use of
SSNs that contributed to individuals unlawfully using patients’ SSNs and other
identifying information to open credit card accounts and file fraudulent tax returns. 10
These examples show that each time individuals disclose their SSNs, dishonest
individuals are given an opportunity to obtain this personal information and use it to
commit unlawful acts.

STEPS TAKEN TO LIMIT SSN COLLECTION AND USE

A recognition of current identity theft concerns and the critical role of the SSN as a
personal identifier have led several DoHs to eliminate the use of SSNs in their newborn
screening programs. In 2010, the State of New York enacted a law restricting the use
of SSNs by its agencies. 11 As a result, the State’s DoH issued a policy prohibiting the
collection, use, or transmittal of SSNs in its newborn screening program. Because of
the change in its process, the DoH excluded the SSN field on its form and began relying
primarily on an accession number to match infants’ screening results.

Identity theft awareness and privacy issues have also caused changes. For example,
informed mothers do not always provide their SSNs for newborn screening. Because of
the resulting low compliance, one DoH stopped requiring hospitals to collect mothers’
SSNs for its newborn screening program. In addition, one hospital we visited did not
collect or use SSNs for the newborn screening program, although the State DoH
requested this information on its form.

As identity theft and privacy concerns have moved to the forefront, Federal agencies,
such as SSA and the Internal Revenue Service, have reached out to organizations,
such as educational institutions and government agencies, to encourage reduction of
SSNs in their business processes. 12 SSA’s Philadelphia Regional Office also has
initiated a public information program on its Website 13 to encourage businesses,
government agencies, medical facilities, and educational institutions to protect SSNs by

9
 SSA OIG, State and Local Governments’ Collection and Use of Social Security Numbers
(A-08-07-17086), September 10, 2007.
10
  SSA OIG, Hospitals’ Use and Protection of Social Security Numbers (A-08-06-16056),
January 27, 2006.
11
     NY Pub. Off. Law § 96-a (McKinney 2010).
12
   SSA’s Kansas City region has an initiative directed toward educational institutions;
http://www.socialsecurity.gov/kc/id_ssn_ed.htm (last modified February 9, 2011). The
Internal Revenue Service initiatives are at http://www.irs.gov/privacy/article/0,,id=228444,00.html (last
updated December 20, 2010).
13
   See SSA’s Philadelphia region’s initiative at http://www.socialsecurity.gov/phila/ProtectingSSNs.htm
(last modified November 14, 2011).
Page 5 - The Commissioner


using alternate identifiers in their record systems. While we believe these initiatives
have increased awareness, we also realize it may take Federal legislation to compel
some entities to reduce or limit SSN collection and use. Nonetheless, as the Agency
that assigns SSNs, we believe SSA provides a valuable service to the numberholder,
and inspires public trust, when it encourages others to take steps to reduce SSN
collection and use. Accordingly, we encourage SSA to continue its outreach efforts.

CONCLUSION AND RECOMMENDATION
Despite the potential risks associated with using SSNs as identifiers, many State DoHs
continue collecting mothers’ SSNs in their newborn screening programs. We believe
this practice increases the risk of SSN misuse and unnecessarily subjects mothers to
the possibility of identity theft. While SSA cannot prohibit SSN collection and use, we
believe it can take steps to enhance SSN integrity. Accordingly, we recommend that
SSA encourage State DoHs to eliminate the collection and use of mothers’ SSNs in
their newborn screening programs.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendation. See Appendix D for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Federal Laws that Govern Disclosure and Use of the Social Security
             Number
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
C.F.R.        Code of Federal Regulation
DoH           State Department of Health
HIPAA         Health Insurance Portability and Accountability Act of 1996
H.R.          House of Representatives
OIG           Office of the Inspector General
Pub. L. No.   Public Law Number
Regs.         Regulations
SSA           Social Security Administration
SSN           Social Security Number
Stat.         Statutes
U.S.C.        United States Code
                                                                                             Appendix B

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974

The Privacy Act of 1974 indicates, in part, that it is unlawful for any Federal, State, or
local government agency to deny any individual any right, benefit, or privilege provided
by law because of such individual’s refusal to disclose his/her SSN, unless the
disclosure is required by Federal statute or is to any Federal, State, or local agency
maintaining a system of records in existence and operating before January 1, 1975,
such disclosure was required under statute or regulation adopted before such date to
verify the identity of an individual. 1 Further, any Federal, State, or local government
agency requesting that an individual disclose his/her SSN must inform the individual
whether the disclosure is voluntary or mandatory, by what statutory or other authority
the SSN is solicited and what uses will be made of the SSN. 2

The Social Security Act

The Social Security Act provides, in part, that “Social security account numbers and
related records that are obtained or maintained by authorized persons pursuant to any
provision of law enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such social security account number or related
record.” 3 The Social Security Act also provides, in part, that “. . . [w]hoever discloses,
uses, or compels the disclosure of the social security number of any person in violation
of the laws of the United States; shall be guilty of a felony . . . .”4 The Social Security
Act authorized certain State and local agencies to use the SSN for certain purposes and
allows, or in certain instances requires, such agencies to require individuals to furnish
their SSNs for such purposes.5


1
 Pub. L. No. 93-579, § 7, 88 Stat. 1896, 1909 (1974), 5 U.S.C. § 552a, note (Disclosure of Social
Security Number).
2
    Id.
3
    Social Security Act § 205(c)(2)(C)(viii), 42 U.S.C. § 405(c)(2)(C)(viii).
4
    Social Security Act § 208(a)(8), 42 U.S.C. § 408(a)(8).
5
 Social Security Act § 205(c)(2)(C)(i), (ii), (v), (vi), (D), and (E); 42 U.S.C. § 405(c)(2)(C)(i), (ii), (v), (vi),
(D), and (E).

                                                         B-1
The Health Insurance Portability and Accountability Act of 1996 (HIPAA)

HIPAA’s Administrative Simplification provisions address the privacy and security of
health data, including SSNs. HIPAA’s Privacy Rule protects all "individually identifiable
health information" held or transmitted by a covered healthcare entity or its business
associate, in any form or media, whether electronic, paper, or oral. HIPAA’s Security
Rule specifies administrative, technical, and physical safeguards the covered healthcare
entity must comply with to assure the confidentiality of electronic protected health
information. 6




6
 Pub. L. No. 104-191, §§ 261–264, 110 Stat. 1936, 2021-2033 (1996), Social Security Act § 1171-1180.
42 U.S.C. §§ 1320d-1320d-9, 45 C.F.R. Parts 160 and 164.

                                                 B-2
                                                                      Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed relevant Federal laws and regulations.

•   Reviewed relevant laws from all 50 States to determine whether Social Security
    number (SSN) collection is legally mandated for the newborn screening program.

•   Contacted all 50 State Departments of Health (DoH) to determine whether each
    collected or used mothers’ SSNs in the newborn screening program.

•   Visited six State DoHs and one area hospital near each DoH. For those sites
    visited, we interviewed DoH and hospital personnel regarding their collection, use,
    and disclosure of mothers’ SSNs in the newborn screening program.

•   The States visited were California, Colorado, Florida, North Carolina, New York, and
    Ohio. The hospitals visited were California Pacific Medical Center, Exemplia Saint
    Joseph, Tallahassee Memorial, Wake Med, Albany Medical Center, and
    Riverside Methodist.

Our review of internal controls was limited to gaining an understanding of State DoHs’
collection, use, and disclosure of SSNs. The Social Security Administration entity
reviewed was the Office of the Deputy Commissioner of Operations. We conducted our
audit from February through August 2011 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      November 01, 2011                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis    /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Collection, Use, and Disclosure of Social Security
           Numbers in States’ Newborn Screening Programs” (A-08-11-11181)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comment.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“COLLECTION, USE, AND DISCLOSURE OF SOCIAL SECURITY NUMBERS IN
STATES’ NEWBORN SCREENING PROGRAMS” (A-08-11-11181)

Recommendation 1

The Social Security Administration should encourage the States’ Departments of Health to
eliminate the collection and use of mothers’ Social Security numbers in their newborn screening
programs.

Response

We agree.




                                              D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Theresa Roberts, Audit Manager, Birmingham Office of Audit

Acknowledgments

In addition to those named above:

   Kozette Todd, Senior Auditor

   Josh Torres, Program Analyst

   Chicago Audit Division
   Dallas Audit Division
   Financial Audit Division
   New York Audit Division
   San Francisco Audit Division

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-08-11-11181.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
